No.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020-2021

JOSE TEJADA,
Petitioner,

-v.-

COMMONWEALTH OF MASSACHUSETTS
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME JUDICIAL COURT FOR
THE COMMONWEALTH OF MASSACHUSETTS

CERTIFICATE OF SERVICE

I, David H. Mirsky, hereby certify that on this 12" day of August, 2020, I served the Petition
For Writ of Certiorari and Motion to Proceed In Forma Pauperis on all parties to be served.
In accordance with Rule 29(3) of the Supreme Court Rules, said service has been made by
first class mail, postage prepaid, to Thomas E. Bocian, Deputy Chief, Appeals Division,
Office of Attorney General Maura Healey, Commonwealth of Massachusetts, One Ashburton
Place, 19" Floor, Boston, MA 02108. I also certify that I mailed a copy to the petitioner Jose

Tejada.
ALUM

David H. Mirsky, Esquire if
(MA B.B.O. # 559367)
Counsel of Record for Petitioner
Mirsky & Petito, Attorneys at Law
P.O. Box 1063
Exeter, NH 03833
Tel.: 603-580-2132
dmirsky@comceast.net

41
No.

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020-2021
JOSE TEJADA,
Petitioner,
-v.-
COMMONWEALTH OF MASSACHUSETTS

Respondent

ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME JUDICIAL COURT FOR
THE COMMONWEALTH OF MASSACHUSETTS
AFFIDAVIT OF TIMELY FILING BY MAIL
David H. Mirsky, on oath, deposes and says:
1. [am a member of the Bar of this Court.
2. I submit this affidavit in accordance with Rule 29 of this Court.
3. The petition for certiorari enclosed herewith is being mailed today, August 12,
2020, by United States mail, first class, postage prepaid, in a package delivered to the United
States Post Office in Exeter, New Hampshire 03833 and addressed to:
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543.

4. The mailing is within the permitted time for filing the petition for certiorari.

Made this 12th day of August, 2020, at Exeter, NH under the penalties of perjury.

DLW Med

David H. Mirsky J
